<html>
<title> - GAGGING THE LAWYERS: CHINA'S CRACKDOWN ON HUMAN RIGHTS LAWYERS AND IMPLICATIONS FOR U.S.-CHINA RELATIONS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


  GAGGING THE LAWYERS: CHINA'S CRACKDOWN ON HUMAN RIGHTS LAWYERS AND 
                 IMPLICATIONS FOR U.S.-CHINA RELATIONS
=======================================================================

                                 HEARING

                               BEFORE THE

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 28, 2017

                               __________

 Printed for the use of the Congressional-Executive Commission on China
 
 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


         Available via the World Wide Web: http://www.cecc.gov
         


                    U.S. GOVERNMENT PUBLISHING OFFICE                    
26-342 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e88f9887a88b9d9b9c808d8498c68b8785c6">[email&#160;protected]</a>          
         
         
         


              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

Senate				     House
                                     
MARCO RUBIO, Florida, Chairman       CHRIS SMITH, New Jersey, 
TOM COTTON, Arkansas                 Cochairman
STEVE DAINES, Montana                ROBERT PITTENGER, North Carolina
JAMES LANKFORD, Oklahoma             TRENT FRANKS, Arizona
TODD YOUNG, Indiana                  RANDY HULTGREN, Illinois
DIANNE FEINSTEIN, California         MARCY KAPTUR, Ohio
JEFF MERKLEY, Oregon                 TIM WALZ, Minnesota
GARY PETERS, Michigan                TED LIEU, California
ANGUS KING, Maine

                     EXECUTIVE BRANCH COMMISSIONERS

                           Not yet appointed

                    Elyse B. Anderson, Staff Director

                  Paul B. Protic, Deputy Staff Director

                                  (ii)
                            
                            
                            CO N T E N T S

                              ----------                              

                               Statements

                                                                   Page
Opening Statement of Hon. Christopher Smith, a U.S. 
  Representative From New Jersey; Cochairman, Congressional-
  Executive Commission on China..................................     1
Statement of Hon. Marco Rubio, a U.S. Senator From Florida; 
  Chairman, Congressional-Executive Commission on China..........     4
Halliday, Terence, Co-Director, Center on Law and Globalization, 
  American Bar Foundation and Coauthor of Criminal Defense In 
  China: The Politics Of Lawyers At Work.........................     6
Teng Biao, Chinese Human Rights Lawyer, Visiting Scholar, 
  Institute for Advanced Study and Co-Founder, Open Constitution 
  Initiative and China Human Rights Accountability Center........     9
Xia Chongyu, Son of Imprisoned Human Rights Lawyer Xia Lin and a 
  Student at Liberty University..................................    12
Xiaorong Li, Co-editor, Charter 08, a Collection of Essays by 
  Charter 08 Signers and Supporters; Author, Ethics, Human Rights 
  and Culture; Founder, Several Human Rights NGOs Focusing on 
  China; and Occasional Contributor to Philosophy Journals and 
  Newspapers.....................................................    13

                                APPENDIX
                          Prepared Statements

Halliday, Terence................................................    28
Teng, Biao.......................................................    29
Xia, Chongyu.....................................................    33
Li, Xiaorong.....................................................    39


Rubio, Hon. Marco, a U.S. Senator From Florida; Chairman, 
  Congressional-Executive Commission on China....................    42
Smith, Hon. Christopher, a U.S. Representative From New Jersey; 
  Cochairman, Congressional-Executive Commission on China........    43

                       Submissions for the Record

Prominent Lawyer Cases...........................................    45

Witness Biographies..............................................    51

 
  GAGGING THE LAWYERS: CHINA'S CRACKDOWN ON HUMAN RIGHTS LAWYERS AND 
                 IMPLICATIONS FOR U.S.-CHINA RELATIONS

                              ----------                              


                        WEDNESDAY, JUNE 28, 2017

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 2:24 p.m., 
in room HVC-210, Capitol Visitor Center, Hon. Christopher 
Smith, Cochairman, presiding.
    Also Present: Chairman Rubio and Senator Young.

      OPENING STATEMENT OF HON. CHRISTOPHER SMITH, A U.S. 
   REPRESENTATIVE FROM NEW JERSEY; COCHAIRMAN, CONGRESSIONAL-
                 EXECUTIVE COMMISSION ON CHINA

    Representative Smith. Good afternoon. The hearing will come 
to order. And I want to thank each and every one of you for 
being here today. Sorry for the delay, both houses are in very 
active mode.
    We just had a series of votes. And I know Chairman Rubio is 
very much engaged on the healthcare issue, but he will be here 
very shortly.
    Chinese officials repeatedly tell me that I should focus 
more on the positive aspects of China and not dwell so much on 
the negative. I have heard it from diplomats, I have heard it 
from people when I have traveled in China Beijing as well as in 
Shanghai.
    That is an extremely difficult task when you read the 
horrifying and sadistic accounts of torture and enforced 
disappearances experienced by lawyers and rights advocates. It 
is hard to be positive when you contemplate Liu Xiaobo's cancer 
diagnosis and the fact that China effectively silenced its most 
brilliant democracy advocate.
    Earlier today, I am happy to say, again, another voice from 
the administration at a hearing before the House Committee on 
Foreign Affairs, in answer to a question that I posed, Nikki 
Haley clearly and unmistakably said he should be free to go 
wherever he wants to go and that would include he and his wife 
coming to the United States to get the very necessary medical 
treatment that he has been denied.
    The empty chair at Oslo, and I was there, speaks volumes 
about the Communist Party's abiding fear that freedom will 
upend the power of the privileged few when they should be 
seeing liberty as a path to a greater peace and prosperity.
    At a hearing last month in the Subcommittee on Global Human 
Rights in the House Foreign Affairs Committee, I and my fellow 
colleagues heard testimony from the wives of five detained or 
disappeared human rights lawyers. The courageous women have 
become effective advocates for their husbands and for all those 
detained in the 709 crackdown.
    They described in horrifying detail the physical, mental, 
and psychological torture experienced by their husbands, 
including marathon interrogation sessions, sleep deprivation, 
beatings, crippling leg tortures and prolong submersion in 
water.
    Many of their husbands were also forced to take alarming 
quantities of drugs, including tranquilizers, barbiturates, 
antipsychotic drugs and other unknown substances daily.
    What they described was shocking, offensive and morally 
inhumane but, frankly, not surprising. It is also possible that 
Chinese officials believe the international community will not 
hold them accountable.
    After the hearing, I wrote the heads of the American 
Medical Association, the American Psychological Association, 
the World Health Organization, as well as Secretary of State 
Tillerson and Ambassador Nikki Haley.
    I asked for a condemnation of the practice of torture and 
medical experimentation on prisoners of conscience.
    I have also asked for investigations so that serious 
questions will be asked of the Chinese Government. We know that 
those questions have been asked in the past by many, including 
special rapporteurs for torture. I remember when Manfred Nowak 
made his trip to China, the report was scathing, and yet 
nothing has been done to ameliorate this horrific abuse.
    Finally, I have asked for accountability. I have asked 
Secretary Tillerson to start investigations under the Global 
Magnitsky Act, a bill that I led on the House side last year, 
so that any Chinese Government officials complicit in torture 
should be never allowed to benefit from entry to the United 
States or access to our financial system.
    The issues of torture and residential surveillance in a 
designated location, effectively enforced disappearances, will 
be priorities of mine and so many others, and the chairman, our 
good friend, Marco Rubio, as this Commission moves forward.
    I believe these issues are diverse and multi-level 
coalitions could be built to raise issues with the Chinese 
Government.
    I would also think we need to do more to prioritize the 
protection of human rights lawyers and their families.
    At the hearing last month, I heard the phrase ``the war on 
law'' used to describe the systematic effort to eviscerate the 
network of human rights lawyers. That phrase struck me because, 
though the number of human rights lawyers in China is small, 
what they stand for was nothing less than the rule of law for 
everyone, particularly those persecuted or aggrieved by the 
Communist Party.
    They stand for the right of everyone in China, religious 
believers, ethnic minorities, petitioners, women who have been 
forced to undergo forced abortions, labor activists, or victims 
of corrupt or of the barbaric population-control policies, to 
always have a fair hearing, due process and a justice that is 
not politicized.
    We all remember the case of Chen Guangcheng who fought so 
hard for the women in Linyi who were being forced into 
abortions and forced sterilizations. And for that, he was 
brutalized, as well as his wife.
    And, of course, the Communist Party see the idea of fair 
hearings, due process and justice as not politicized, as a 
dangerous idea. It means that they should be accountable to the 
people--imagine that--to hundreds of millions of people, in 
fact, seeking redress for persecution and party corruption.
    Xi Jinping is feted in Davos for his commitments to 
openness and the rule of law, but it is rule of law for the few 
and the privileged and rule by law for the rest.
    The failure to implement the rule of law to favor a type of 
lawlessness in the pursuit of keeping the Communist Party in 
power has serious and lasting implications for U.S.-China 
relations as well.
    We must recognize, after the failure of two-and-a-half 
decades of the so-called engagement policies, that China's 
domestic repression drives its external aggression, its 
mercantilist trade policies and its unimaginable decisions to 
keep propping up a murderous North Korean regime.
    I know the Chinese Government wants me and others to focus 
on positive things. I think one positive development here is 
that the spouses and families of rights advocates and lawyers 
have given Beijing a rightly deserved headache. They have 
refused, absolutely refused to be silent about their spouses' 
detentions or disappearances and have used the internet and 
media to get out their message.
    This trend is something new, something different, something 
we need to honor and deeply respect because they are under 
great pressure to be silent through intimidation, harassment, 
threats and detention.
    I want to say to our witness, Chongyu, that we appreciate 
your testimony here today and the fact that you are speaking 
out on behalf of your father. We know that this Commission is 
an advocate for you and your entire family. If you or your 
family face reprisals because of your testimony here today, the 
Congress will take it as a personal affront to the work of this 
body.
    I know your petition has gathered 94,000 signatures. Please 
make sure that my name is 94,001.
    The one thing that gives me hope is that the people of 
China long for liberty, justice and opportunity. We saw it in 
the hearts and minds of those who braved the tanks, including 
Tank Man, during Tiananmen Square, possibilities that turned 
into a terrible, terrible tragedy and slaughter. But it was the 
heart of the Chinese people that came through. They want 
freedom. They want democracy. They want respect for fundamental 
human rights.
    The need for principled and consistent American leadership 
is now more important than ever as China's growing economic 
power and persistent diplomatic efforts have succeeded in 
dampening global criticism of its escalating repression and 
failures to adhere to universal standards.
    The United States must be a beacon of liberty and a 
champion of individual rights and freedoms. The United States 
must also continue to be a voice for those silenced, jailed or 
repressed in China.
    We cannot and will not forget those in China who bravely 
are seeking liberty and justice and the inalienable rights that 
we all share here in the United States.
    Like China's human rights lawyers, like Liu Xiaobo, those 
who bravely seek peaceful change in China, that is our focus, 
that is our priority and that is our hopes and prayers are for 
them.
    I would like to now turn it over to the distinguished 
chairman, Senator Rubio.

  OPENING STATEMENT OF HON. MARCO RUBIO, A U.S. SENATOR FROM 
 FLORIDA; CHAIRMAN, CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Chairman Rubio. Well, thank you very much. Thank you for 
filling in. As you know, the Senate is involved in one big 
issue, the healthcare issue, and it delayed us here a little 
bit while we were involved in a conversation. So I thank you 
for starting it and for taking over and all of you for being 
here this afternoon.
    This hearing is entitled ``Gagging the Lawyers: China's 
Crackdown on Human Rights Lawyers and Its Implications for 
U.S.-China Relations.''
    We will only have one panel testify today. It is going to 
feature Terence Halliday who is the co-director of the Center 
on Law and Globalization at the American Bar Foundation and 
also the co-author of the book Criminal Defense in China: The 
Politics of Lawyer at Work; Teng Biao, a Chinese human rights 
lawyer, a visiting scholar at the Institute for Advanced 
Studies and co-founded of the Open Constitution Initiative and 
China Human Rights Accountability Center; Xia Chongyu, son of 
imprisoned human rights lawyer Xia Lin and a student at Liberty 
University; and Xiaorong Li who is an independent scholar 
formerly with the Institute for Philosophy and Public Policy at 
the University of Maryland.
    We thank you all for being here.
    Before we move to the topic at hand, I want to take a 
moment to acknowledge the news this week regarding the reported 
transfer of 2010 Nobel Peace Prize Laureate Liu Xiaobo from 
prison to a hospital for treatment for late-stage liver cancer. 
This should not be confused with an act of mercy on the part of 
the Chinese Government.
    His eight years of imprisonment due to his eloquent appeals 
for nonviolent political reform and protection of human rights 
remains a travesty of justice and a stain on China's human 
rights record.
    Dr. Liu's medical parole is not the equivalent of an early 
release from his prison sentence or that he has the freedom to 
meet with his wife, Liu Xia, and other family members and 
friends.
    I have urged the President to seek a humanitarian transfer 
of Dr. Liu and his wife to the United States to explore what 
medical options may be available.
    I would also like to briefly read a quote from an editorial 
that ran in the Communist Party-controlled Global Times. The 
writer gloated, ``China has not collapsed as the West forecast 
in the 1980s and 1990s, but has created a global economic 
miracle. A group of pro-democracy activists and dissidents lost 
a bet and ruined their lives. Although Liu was awarded the 
Nobel Peace Prize, he is likely to face tragedy in the end.''
    What a grotesque expression in this Communist Party-
controlled publication.
    Any notion that Dr. Liu will receive adequate medical care 
under the supervision of his captors is simply absurd. I was 
pleased to read this morning that the newly arrived U.S. 
Ambassador Terry Branstad has urged the Chinese Government to 
allow Dr. Liu to seek treatment overseas.
    As the Nobel Committee noted, Dr. Liu exemplifies the long 
and nonviolent struggle for human rights in China. That same 
spirit animates the work of the Chinese rights lawyers you will 
hear about today.
    July 9th, 2017 marks the two-year anniversary of the start 
of what has been described as an unprecedented nationwide 
crackdown on human rights lawyers and legal advocates in China, 
an event that has come to be known as the 709 crackdown.
    While perhaps unprecedented in scale and coordination, 
nearly 300 rights advocates were detained, summoned for 
questioning or disappeared, the crackdown began much earlier.
    Xi Jinping's rule has been marked by extensive campaigns to 
silence political dissent, curtail civil society and ensure 
ideological loyalty to and conformity with the Chinese 
Communist Party. No sector of society is untouched. Business 
leaders, bloggers, social media users, university professors, 
journalists, religious adherents have all been targeted, but 
China's rights defenders and lawyers have been the tip of the 
spear for even longer, as our second witness, Dr. Teng Biao, 
can no doubt attest.
    This small, but tenacious group is closely linked to the 
growth in legal rights consciousness among ordinary Chinese 
citizens. China's rights defense movement converged around the 
incidents of injustice that resulted from the single-minded 
drive of the Chinese Government and the Communist Party for 
rapid economic growth without political reform.
    The victims of injustice included farmers who lost land 
from government expropriation, urban residents forcibly evicted 
without fair compensation, migrant workers trying to recoup 
unpaid wages, teachers, laid-off workers and army veterans who 
lost their pensions, and parents whose children were made ill 
from ingesting contaminated milk powder. The movement has 
expanded to support free speech, the pro-democracy aspirations 
of Hong Kongers, ethnic minority rights and other issues.
    Our first witness, Dr. Halliday, has conducted literally 
hundreds of interviews with these men and women, a group bound 
together by their shared conviction regarding the importance of 
protecting basic legal freedoms a system where rule of law 
remains aspirational at best.
    Among the lawyers featured in his latest book are those 
whose names and stories have captured headlines for the last 
two years. Their unjust and unexpected detentions nearly two 
years ago was, for many, the start of a long and harrowing 
ordeal marked by months in isolation, torture, coerced 
confessions and other forms of mistreatment.
    Some of these lawyers, like Jiang Tianyong, whose wife I 
had the privilege of meeting earlier this year, remain in 
detention. Others, like Li Heping, are no longer in captivity, 
but the brutality they experienced left them visibly, 
physically altered. Many have been disbarred and will never 
practice law in China again. And still others live under 
constant surveillance and harassment.
    It is tempting in the face of China's worsening and 
increasingly brazen human rights violations to grow 
disheartened, which is why I think it is equally important to 
spend some time today examining another part of this crackdown 
that is unprecedented, and that is the response of some of the 
family members of those detained. By their own telling, many of 
the wives of these rights lawyers had not previously been 
involved in their husbands' efforts to pursue justice and 
accountability from their government, but as the present system 
conspired against them and their families, they became 
advocates in their own right.
    In case after case, these women took up the mantle of 
advocacy on behalf of their husbands. Their personal accounts 
of intimidation and harassment, of landlords refusing them 
housing, of children denied entry into local schools, of 
movement restricted and lives lived under constant 
surveillance, coupled with their compelling public defense of 
their husbands' innocence has, in the words of Dr. Halliday, 
opened up a, quote, ``new line of struggle that we have not 
seen before in China,'' end quote.
    Similar courage and boldness is on display today with the 
testimony of Xia Chongyu about his father's plight. Even for 
those of us who hold steadfastly to the view that the United 
States foreign policy must be infused with the principled 
defense of human rights and the promotion of basic freedoms, 
there remains a notion that change in China will ultimately 
come from within. And I agree.
    And China's rights defense lawyers are at the vanguard in 
pressing for systematic change and seeking accountability and 
redress and working toward a day when China is a nation where 
the law is used to protect rights, not to suppress them. It is 
our duty to stand with them in this monumental task.
    And it is our honor to welcome all of you here today.
    And we will begin with the testimony of Mr. Halliday.
    Thank you for being here.

 STATEMENT OF TERENCE HALLIDAY, CO-DIRECTOR, CENTER ON LAW AND 
 GLOBALIZATION, AMERICAN BAR FOUNDATION AND COAUTHOR, CRIMINAL 
       DEFENSE IN CHINA: THE POLITICS OF LAWYERS AT WORK

    Mr. Halliday. Mr. Chairman, Mr. Cochairman and 
distinguished members of the Commission, I am privileged to be 
invited here to participate in this hearing.
    I have a longstanding admiration for the work of the 
Commission.
    In my opening remarks, I address the meaning and the 
significance of China's unprecedented crackdown on lawyers 
almost two years after its onset in early 2015. My comments are 
derived from the empirical research of my research team into 
criminal procedure law and criminal defense lawyers over the 
past 12 years.
    Our findings, published in our book Criminal Defense in 
China, conclude that China's legal system and China's legal 
profession have come an enormous distance since the enactment 
of the 1979 Criminal Procedure Law.
    Nevertheless, on a number of issues integral to the defense 
of basic legal freedoms, China has turned away from reform both 
in its law and in its treatment of a key segment of the legal 
profession.
    A sudden turning point occurred on July 9, 2015, when China 
launched a nationwide crackdown on activist lawyers. The 709 
crackdown, as it has been colloquially labeled, has been 
unprecedented in scale and severity.
    Within days, hundreds of lawyers across China were 
detained, disappeared and interrogated. Lawyers have been 
intimidated, tortured, charged with serious crimes and 
sanctioned severely.
    Why did this crackdown occur? Research on activist lawyers 
reveals deep grievances held by hundreds of millions of Chinese 
who suffer from health-threatening pollution, from takings of 
their homes and land, from widening inequality, from religious 
controls and persecution, from discriminatory treatment of 
minorities, from inadequate protection of workers and women, 
and from exploitation and vulnerability of migrant laborers, 
among others.
    The sheer quantity of disaffected and angry populations can 
fuel widespread social unrest. Lawyers often become the help of 
last resort when every other channel has failed. Therefore, 
over the past several years the Chinese Communist Party has 
faced a double threat to its survival. On the one hand, 
economic and social problems appear to be multiplying and 
intensifying. On the other hand, lawyers increasingly have been 
articulating and expressing those grievances through law in 
highly visible ways.
    What triggered the crackdown on lawyers on July 9, 2015? 
Over the last several years, activist lawyers significantly 
increased in numbers. Hundreds of new activists, many of them 
young and well-educated, signaled their willingness to join the 
front line.
    Lawyers magnified their ability to mobilize.
    Since 2011, lawyers increasingly came together in large 
defense teams in difficult trials. Through social media, 
activist lawyers could create instant crowds to rush to a 
courthouse or defend a lawyer being harassed by police. 
Nationwide, online networks could mobilize hundreds of lawyers 
for new cases or emergency situations.
    The power of social media multiplied the impact of a new 
type of lawyer. So-called diehard lawyers actively used the 
social media and street theater to activate supporters and 
expose problems in defending their clients.
    Some lawyers had accumulated thousands or even millions of 
followers on Weibo, China's equivalent to Twitter. Clearly, 
China's leaders felt vulnerable to activist, diehard and 
ordinary lawyers' enhanced powers to mobilize publics.
    What motivates these lawyers to exhibit such courage in the 
face of a regime that does not hesitate to use inhumane and 
even life-threatening measures against its opponents?
    Our research reveals that courage for many lawyers arises 
from their own life experiences, such as harms to parents 
during the Cultural Revolution, participation in the 1989 
Tiananmen movement, or shocking experiences in their legal 
practices.
    Many lawyers build their courageous representation upon 
legal ideals that underwrite the good political society.
    First, they insist on the protection of basic legal 
freedoms, such as the right to be represented by a lawyer, due 
process in trials and fair adjudication. They insist upon 
freedoms of speech, of association and religion.
    Second, they are committed to a vibrant civil society as it 
is expressed through voluntary associations and an open public 
sphere.
    Third, these activist lawyers strongly oppose arbitrary 
executive power, and they call for checks and balances within 
the state.
    Our research documents that many lawyers, notable and 
ordinary practitioners, also draw their courage from their 
Christian faith. Christian lawyers insist upon the value of 
equality. Most importantly, that in the eyes of God and in the 
eyes of the law, said one lawyer, ``Chairman Mao is as equal as 
me.''
    They champion the Judeo-Christian emphasis on a political 
and legal order that delivers justice, often quoting, like 
Martin Luther King, the Biblical prophets Amos and Micah.
    They believe in fairness, that justice should be available 
reliably and fairly to all, whether they are Han Chinese or 
Tibetan, Party members or Falun Gong members.
    Finally, they hold China's law accountable to God's law. I 
consider it probable that Party leaders fear Christian lawyer 
leaders who have strong relationships with Protestant churches 
across China, China's largest civil society group, and some who 
have significant international connections.
    What does the lawyer crackdown tell the world and us about 
China's future? Viewing China through the lens of courageous 
lawyers reveals that legal change in China has turned toward 
repression, a repression which has taken deeply sobering turns 
since 2015.
    Nevertheless, deep impetuses for change remain within 
China. Repressive actions themselves may be self-subversive. 
Notable activists refuse to surrender easily or to go quietly. 
Their wives, their comrades spring to their defense. 
Significant numbers of grassroots lawyers continue to harbor 
visions of alternative legal political futures. The 
international community ratchets up its efforts at solidarity, 
pressure, and support for lawyers. Where goes China may depend 
very considerably on where go its lawyers. Will it follow long, 
peaceful paths of reform and the expansion of basic legal 
freedoms that are offered by these activist lawyers? Or will 
China lurch toward a violent, explosive path that could lead to 
fearful, unpredictable outcomes?
    For the United States to respond vigorously to China's 
repression against lawyers and its deviance with respect to 
global norms, may I offer the following recommendations.
    (1) The United States Government and the international 
community of states, international organizations, and publics 
should stand in solidarity with China's activist lawyers and 
hold China's practices strictly accountable to global 
standards, most importantly those inscribed in U.N. 
conventions, principles, and institutions. These are applicable 
to all persons, places, and states without exception.
    (2) The United States Government should maintain its 
leadership position in the United Nations Human Rights Council 
and other authoritative international bodies so that China does 
not erode or dilute universal norms of law, lawyers, and 
rights.
    (3) The United States Government should use all means at 
its dispoal, including joint statements with other states, 
bilateral dialogues, and monitoring by U.S. agencies to press 
China to adhere to global standards in its treatment of all its 
lawyers, most especially those swept up in the crackdown.
    (4) The current administration should strengthen the 
capacity of the U.S. Department of State and other executive 
agencies to monitor treatment of vulnerable populations in 
China and particularly lawyers who represent those populations.
    (5) U.S. Government agencies, including the CECC, should 
mobilize U.S. firms businesses operating in China to recognize 
the dangers their employees and partners face as China offers 
less and less protections to persons inside China who cross 
invisible lines being drawn and redrawn by China's security 
apparatus.
    (6) The United States should lead other states in the call 
for release of activists being punished for their rights 
defense work, and reject the criminalization of their 
legitimate exercise of rights protected by Chinese and 
international law.
    Chairman Rubio. Thank you.
    We will recognize our second witness, Teng Biao.

 STATEMENT OF TENG BIAO, CHINESE HUMAN RIGHTS LAWYER, VISITING 
SCHOLAR, INSTITUTE FOR ADVANCED STUDY, AND CO-FOUNDER, THE OPEN 
 CONSTITUTION INITIATIVE AND CHINA HUMAN RIGHTS ACCOUNTABILITY 
                             CENTER

    Mr. Biao. Mr. Chairman, distinguished members of CECC, I am 
honored to be invited to testify at this especially important 
hearing.
    This coming July 9th, the second anniversary of the 709 
crackdown, there will be events in DC., Hong Kong, Taiwan and 
some European cities to mark the inaugural China Human Rights 
Lawyers' Day, which I have been organizing for months.
    Chinese human rights lawyers have since 2003 become one of 
the most active and effective forces in China defending rights 
and freedom and, inevitably, have been the target of the 
government's persecution since the beginning of the rights 
defense movement.
    Because of my work of promoting human rights and democracy 
since 2003, I was disbarred, banned from teaching and 
eventually fired, banned from travelling, and kidnapped for 
three times by the secret police.
    In 2011, I was detained in a black jail for 70 days in an 
extreme form of solitary confinement, physically and mentally 
tortured. My wife and daughter were banned from travelling 
abroad, and my wife fired by the company she worked for due to 
the pressure from Chinese Government.
    Collective punishment is frequently used by Chinese 
authorities to maximize intimidation. The purpose of torture 
and collective punishment was to make me stop my human rights 
work, but I did not.
    The persecution of rights lawyers reached its peak in 709 
crackdown. Eight lawyers are still in prison, including Jiang 
Tianyong and--Wu Gan. Wang Quanzhang has disappeared since July 
2015. His family and lawyers do not even know whether he is 
alive or dead.
    Dozens of lawyers were severely tortured, including 
beatings, electric shocks, sleep deprivation, death threats, 
months or years of solitary confinement, so on and so on.
    Notably, it has been confirmed that many lawyers and 
activists were force-fed with medicines which caused them 
muscle pain, blurred vision and other physical and mental harm.
    The prison conditions and the treatment in detentions are 
extremely inhuman and cruel in China. As we know, deliberate 
neglect aggravated Liu Xiaobo's cancer.
    Now, both Liu Xiaobo and Liu Xia clearly expressed that 
they want to go out of China.
    The rights defense movement has emerged since early 2000 as 
a new focus of the Chinese democracy movement, up to the Xidan 
democracy wall movement in late 1970s and the Tiananmen 
democratic moment in 1989.
    Let us take a brief look at the history of the Chinese 
Communist Party. When the Communist Party was facing a deep 
legal and economical crisis in the late 1970s after waves of 
political campaigns and the brutal Cultural Revolution, they 
had to introduce a process of legalization and marketization.
    Legalization was necessary for establishing social order 
and market economy, and thus was beneficial to the political 
system when mass mobilization was not applicable anymore.
    Millions of laws and regulations were made, legal 
professions were recovered, by the CCP never meant to accept a 
democratic transition or rule of law. Opposition of politics is 
prohibited, but we lawyers and rights advocates tried our best 
to use existing legal channels to defend human rights and 
freedom.
    Starting with a narrow space, the rights defense movement 
attracted more and more supporters, such as lawyers, bloggers, 
persecuted religious groups, victims of human rights abuse, and 
political dissidents. There are incredible achievements under 
such a repressive regime.
    For the past 14 years, the development of the rights 
defense movement was expressed through at least four trends, 
namely, organization, street activism, politicization and 
internationalization.
    There is a clear limitation to China's legalization, that 
is one-party rule, the number-one priority of the CCP. Once the 
CCP senses the use of law could be a potential challenge, it 
never hesitates to nip it in the bud.
    When Xi Jinping took his office, what the CCP was facing 
was increasing crisis, political, economical, social and 
ideological crisis. The calculation of Xi Jinping is that 
without a war on law to destroy the resisting ability of the 
social and political movement, a color revolution will occur, 
and thus, the monopoly of power of the Communist Party will be 
in danger. This is the political background of 709 crackdown.
    Once again, the CCP's war on law makes it urgent and 
necessary to change U.S. human rights policy toward China.
    In 1989, all democracies condemned the Tiananmen massacre, 
sanctioned Chinese dictators and supported Tiananmen activists 
in jail or in exile. Yet very soon, Western leaders could not 
wait to welcome Chinese butchers and dictators, rolling out 
their red carpet replete with eager hugs and state banquets.
    In 1994, U.S. Government granted permanent most-favored-
nation status to China to delink human rights to trade, despite 
protests from human rights groups. Then China was allowed to 
enter the WTO and international market.
    China was given the opportunity to host Olympics, World 
Expo, APEC and the G20. China was voted in as a member of 
United Nations Human Rights Council again and again.
    Now China has become the second-largest economy and is 
playing an active and aggressive role on the international 
stage.
    Cyberattacks, South China Sea aggression, abducting 
overseas booksellers and activists, Confucius Institutes which 
erode academic freedom, the list goes on.
    China is demanding a rewrite of international norms, 
wanting to create a new international order in which rule of 
law is manipulated, human dignity is debased, democracy is 
abused, and justice is denied. In this international order, 
corruption and persecution are ignored, perpetrators are immune 
and dictatorial regimes are united and smugly complacent.
    I would like to point out that U.S. human rights policy 
toward China has long been based on a series of erroneous 
theories and mistaken presumptions regarding Chinese politics 
and their society.
    I do not have time to go into details, but the erroneous 
theories cover misunderstandings of China's market, 
constitution, international accountability, NGOs, so on and so 
on.
    Finally, I would like to offer a few recommendations here.
    Link human rights to trade and other important issues that 
the CCP cares about.
    Implement the Global Magnitsky Act to ban Chinese 
perpetrators and corrupt officials from entering the United 
States.
    Punish U.S. and Western businesses which cooperate with 
Chinese authorities and participate in human rights abuses.
    End the 110 Confucius Institutes in the United States 
educational institutions.
    Do not fund the oppressor.
    Support the real NGOs, not GONGOs.
    Name and shame.
    Expel China from the Human Rights Council of the United 
Nations.
    A powerful and autocratic China will bring calamities to 
mankind. Supporting democracy and human rights in China not 
only corresponds to American-declared values, it will also 
benefit American politics, society and economics in the long 
term.
    Please stand on the side of Chinese people, not on the side 
of Chinese Communist Party. China should be represented by the 
human rights lawyers, activists, dissidents and all Chinese 
people fighting for freedom and democracy, not the illegitimate 
party and the government.
    Thank you.
    Chairman Rubio. Thank you so much for your testimony.
    Our third witness is Xia Chongyu. He is the son of a 
prominent imprisoned human rights lawyer, Xia Lin. He is 
currently a college student at Liberty University, but his 
mother still lives in China.
    And it is in our view, let me just say this, it is 
incredibly important that we make clear that his appearance 
here today should not in any way lead to any pressure on him or 
harm on him or his family. If such an event exists and happens, 
we will view it as a direct attack by Chinese Government and 
Communist Party officials as a result of your testimony here 
today.
    And it is something I want to make abundantly clear, that 
it is something we will be watching and strongly condemning and 
pointing to and knowing that it is directly related to your 
appearance here today. So it is our hope that that is not the 
case.
    But we thank you for being here.

STATEMENT OF XIA CHONGYU, SON OF IMPRISONED HUMAN RIGHTS LAWYER 
          XIA LIN AND A STUDENT AT LIBERTY UNIVERSITY

    Mr. Xia. Dear Congressmen and Congressmen, respectful 
audience, I am Xia Chongyu, son of Chinese human rights lawyer 
Xia Lin.
    It is such a great honor to be here to share about my 
father's situation and what my family has been through these 
past years.
    My father dedicates himself to be the voice for the 
voiceless and provides pro bono legal assistance to the victims 
of human rights violation cases.
    On November 8th, 2014 my father was abducted by secret 
agents without a warrant. The government did not inform my 
mother of my father's arrest until five days after the fact and 
denied my father's basic rights to meet with his defense 
attorney for three or four months.
    Meanwhile, the police kept asking my father about the 
politically sensitive cases he represented. My father was 
physically and mentally tortured by the police, who used 
interrogation techniques such as shining a strong light on his 
eyes to keep him awake for days. They tried to break him so 
that he would confess to fraud, but all their attempts failed.
    After 600 days of imprisonment, he was unfairly tried in a 
closed-door hearing. My father was denied a personal statement 
in court and none of the witnesses had a chance to testify.
    The Second Court of Beijing sentenced my father to 12 years 
in prison for fraud, without appropriate evidence. My father's 
final sentence was delivered without a fair second trial in 
February 2014. No one ever accused my father in person.
    I refuse to accept this illegal and unjust verdict. In 
April, I presented my petition at a convocation of Liberty 
University and the responses were overwhelming. However, when I 
tried to deliver my petition with over 14,000 signatures to the 
Chinese embassy, no one would even see me. Before I left, I 
read my petition aloud at the gate of the embassy.
    At this moment, I have collected over 94,000 signatures. 
Most of them come from Americans and the rest are from other 
countries around the world. I am not alone.
    As a rising nation, China's deteriorating human rights 
record is unacceptable. When a human rights lawyer cannot 
secure his own fundamental rights, I believe every member's 
rights in the society are threatened.
    Human rights lawyers are the cornerstone of society. I hope 
the U.S. Government can increase its involvement in such cases 
in the future. Moreover, I wish the Congress of America could 
urge the Chinese Government to stop controlling the judiciary 
system and stop the persecution against 709 lawyers.
    Lastly, I plead that the White House summon the Chinese 
ambassador and ask the Chinese Government to respond to me and 
my 94,000 petition supporters.
    Meanwhile, I recommend the White House or State Department 
issue a clear policy regretting this type of case. By making a 
clear stance, the U.S. Government would communicate to the 
world that human rights violations will not be tolerated.
    I appreciate the Congress for organizing this hearing so 
that our voice could be heard by the world.
    Thank you.
    Chairman Rubio. And we thank you for your testimony here 
today.
    We are going to begin our questions and I am going to turn 
it first over--oh, I apologize. I am so sorry. I am so sorry. I 
apologize.
    So our final testimony--I said ``final'' earlier and that 
is what threw me off. There is a seat missing, that is what 
threw me off, in between the both of you.
    Xiaorong Li is an independent scholar, formerly with the 
Institute for Philosophy and Public Policy at the University of 
Maryland.
    And thank you for being here. And we are ready for your 
testimony.
    The microphone, if you could just push the button. Could 
you tell them to push the button for her, please? Thank you. 
There we go.

STATEMENT OF XIAORONG LI, CO-EDITOR OF CHARTER 08, A COLLECTION 
   OF ESSAYS BY CHARTER 08 SIGNERS AND SUPPORTERS, AUTHOR OF 
  ETHICS, HUMAN RIGHTS AND CULTURE, FOUNDER OF SEVERAL HUMAN 
 RIGHTS NGOS FOCUSING ON CHINA, AND OCCASIONAL CONTRIBUTOR TO 
               PHILOSOPHY JOURNALS AND NEWSPAPERS

    Ms. Li. Thank you, CECC Commissioners and staff. I am asked 
to share a few thoughts about how Congress and the U.S. 
Government should respond to the July 9 crackdown on lawyers 
and the overall worsening human rights situation in China, 
which, under President Xi Jinping, has taken a nose-down dive.
    Two days ago, many of us woke up with the heart wrenching 
news that Liu Xiaobo, the Nobel Peace Prize laureate, was 
diagnosed with terminal liver cancer, was granted ``medical 
parole'' and relocated from prison to a hospital. Except a 
brief video call, his wife Liu Xia has not been able to talk 
freely. It is now clear that Liu Xiaobo and his family are not 
free to choose doctors nor are they free to travel abroad for 
possibly life-saving treatment.
    Liu Xiaobo is due to be released in 2 years after serving 9 
out of an 11-year imprisonment for his role in Charter 08. He 
has practically been in secret imprisonment. His wife has been 
put under house arrest since 2010. The outside world knows 
almost nothing about what happened to him inside the prison 
walls. Secrecy created the perfect conditions for abuse--
torture, mistreatment, including medical neglect and 
deprivation of adequate care.
    Secret detention, persecution of family members by 
association, mistreatment in prison including deprivation of 
medical treatment are routinely used by the Chinese Government 
to punish human rights lawyers, activists, political or 
religious dissidents, especially in ethnic minority regions 
Tibet and Xinjiang.
    Activist Cao Shunli died from denied medical treatment in 
detention on March 14, 2014 after she was hospitalized in 
critical condition, while authorities had previously rejected 
her lawyers' multiple requests for ``medical bail.'' Five days 
after Cao Shunli's death, the Tibetan political prisoner Goshul 
Lobsang died due to torture and lack of medical treatment in 
detention. One human rights organization has kept a Medical 
Watch List tracking cases of currently detained or imprisoned 
individuals who suffer from deteriorating health and have been 
deprived of adequate medical treatment and denied release on 
medical grounds.
    How should the United States Congress respond to the 
Chinese Government's human rights problems? Four suggestions:
    1. One stance that Congress can take is also most obvious 
one, but often seeming the most difficult one, which I have 
previously discussed in this forum. It is simply to be 
consistent and steadfast. Let me explain: The CECC and the 
State Department both produce carefully-researched annual human 
rights reports based on excellent data and expertise analysis. 
But these reports bear little relevance to U.S. polices toward 
China, where human rights tend to be overpowered by trade 
business or regional strategic interests. Data and facts in 
these congressional and government reports about China's 
worsening human rights problems often do not have a voice in 
such polices. I know this may sound naive and simplistic. But 
being consistent and sticking to one set of human rights 
standards in Congressional resolutions, whether it concerns 
Cuba or Iran or North Korea or China, is what gives U.S. human 
rights polices a measure of credibility.
    2. My second thought is that Congress should continue to 
support programs or organizations that assist victims of rights 
abuses. For instance, right now, Congress should press the 
Administration to issue a standing invitation to Liu Xiaobo and 
his family immediately and make contingency plans to make sure 
that he receive the best treatment and care this country can 
offer, if the Chinese Government let them go. The EU funds 
``emergency relocation and shelter programs'' that evacuate and 
assist human rights defenders at high risk. Congress must guard 
our political refugee programs against xenophobia.
    3. Congress must urge the Administration to comply with the 
Global Magnitsky Accountability Act to seek accountability for 
rights abuses. Congress passed this Act and it was signed into 
law last year. It is a brave new tool that the U.S. Government 
must use to hold perpetrators and corrupt officials in the 
Chinese Government accountable. For years, critics of economic 
sanctions argued that they'd hurt the average Chinese and many 
of us have realized that U.S.-China human rights dialogues have 
produced no real impact. Now, this new law can be used to 
target abusive officials, with no quota restriction on how many 
from which countries could be designated, as long as credible 
evidence against them can be presented. But the decision is 
with the Administration, where such decisions might very well 
be subjected to the whims of other priorities. Congress should 
make sure that the President's other interest in China do not 
get in the way of holding Chinese officials accountable for 
human rights abuses.
    4. One other suggestion is that Congress should support 
U.S. actions holding the Chinese Government accountable for its 
failures to live up to its international human rights 
obligations. China is a member of the Human Rights Council. It 
has signed or ratified 7 of the 10 major human rights treaties, 
such as the Convention against Torture, which China ratified 29 
years ago. Yet the Chinese Government continues to derail rule 
of law reforms, undercut any independence of the judiciary, and 
disregard legal safeguards for detainees from torture.
    As China becomes a raising world power, the government's 
systematic human rights abuses raise serious questions about 
its credibility or fitness to take global leadership in areas 
where the United States is retreating. The Chinese Government 
has a clear track-record of signing up for international human 
rights treaties while violating them outright back home and in 
countries where it's investing, lending money, and building 
infrastructures. It's important to lay bare this track record 
of deceit and hypocrisy. A government that can't honor its own 
commitments, can't keep its own promises, has no credibility. 
Congress should urge the Administration to actively engage 
other member states at the United Nations to keep out 
governments with worsening human rights conditions from the 
Human Rights Council. Dig in, do not retreat from that 
multilateral battleground to fight abusive government and stand 
up for victims.
    Chairman Rubio. We thank all of you for being here today.
    We will now begin to the questions, to all four of them, 
right? [Laughter].
    All right. I am going to let--we are going to hear first on 
the question round from the Cochairman.
    And we thank you for opening the hearing today.
    Representative Smith. Thank you for your leadership, Mr. 
Chairman, which has been extraordinary for many, many years.
    Let me just--there was an excellent and incisive op-ed in 
The Washington Post on June 27th, co-wrote by Yang Jianli, who 
is here, who has testified before this Commission on several 
occasions, and Jared Genser.
    And just very briefly reading from it, and you will see why 
I am raising it in a moment, they pointed out, ``As China's 
power and influence have increased, Western democracies have 
collectively engaged on self-censorship on human rights, 
choosing to prioritize what they have clearly believed to be 
their more important interests over their purported values. In 
the past five years, since Xi became president, discussions of 
human rights have been relegated to fruitless dialogues with 
the Chinese foreign ministry, which has never had any power 
over domestic concern.''
    ``President Barack Obama,'' they went on, ``led the West in 
playing down concerns with China on human rights and was 
conspicuous by his unwillingness to help Liu, his fellow Nobel 
Peace Prize laureate. He raised Liu Xiaobo's case publicly only 
once after he was awarded the Nobel Peace Prize. And whatever 
he might have said privately clearly had no impact. At the same 
time, he did not join the 134 Nobel laureates to a letter to Xi 
Jinping and did not publicly condemn Liu Xia's detention under 
house arrest, and even threatened to veto a bill passed by the 
Senate to rename the street in front of the Chinese embassy Liu 
Xiaobo Plaza.''
    Finally, ``Chinese security officials even exploited the 
United States' repeated refusal to help the Lius in torture 
sessions with detained Chinese dissidents. They explained to 
their victims that they surely must have observed that 
Washington had refused to help the world's only imprisoned 
Nobel Peace Prize laureate and his wife--so what hope could 
they expect when they disappeared, tortured or imprisoned? The 
American refusal of support to Liu Xiaobo gave Xi Jinping 
license to act with total impunity to repress domestic 
dissent.''
    In 1994 on one of many trips to the People's Republic of 
China, I met with Wei Jingsheng for dinner. He had just been 
let out of prison in an attempt by the Chinese Government, one 
high-value political prisoner, to get Olympics 2000. They did 
not, he got rearrested and was brutalized, finally came here on 
humanitarian parole, near death.
    He told me something I will never forget. When you are weak 
and vacillating and kowtowing to this dictatorship, they beat 
us more in the prison camps, in the laogai. When you are tough, 
predictable, with professionalism, they beat us less.
    We have seen eight years of retreat by the Obama 
administration. As the chairman knows, he and I have co-chaired 
hearings over these years pleading with the Obama 
administration to take a tougher stance.
    I believe and hope the long overdue sea change in support 
for human rights in China may be changing. The President, of 
the United States Donald Trump, has already denied funding to 
the United Nations Population Fund, because of their horrific 
complicity in the coercive population control program, a 
program that began in 1979. There are now 62 million missing 
girls. That is the disparity; there are far more that have been 
killed simply because they are girls.
    And yesterday, Secretary Tillerson named China as a tier-
three country, egregious violator of human trafficking.
    We had hearing after hearing asking the previous 
secretaries of state and the Obama administration to name China 
tier three and sanction them and they would not do it. There 
was one automatic downgrade that was required by the law, but 
they would not do it because of the facts.
    We think, I think that we may be seeing a change of heart 
by the U.S. Government, which bodes well for the human rights 
lawyers, the political prisoners, the religious prisoners. And 
that is our hope.
    Two things already: The President's administration, I said 
before, Nikki Haley has said, yes, we do want him to be allowed 
to leave along with his wife, Liu Xiaobo, and hopefully that 
will be the case.
    So, I do have just one question, and if there is time 
permitting I have many more to follow after the distinguished 
chairman.
    But, Dr. Teng, you are one of the founders of the Human 
Rights Accountability Center which is aiming at using the 
Global Magnitsky Act to bring sanctions against China's human 
rights violators. What has been your experience so far with the 
new administration?
    It is a new law, obviously. But is there an openness to 
singling out and holding individuals to account for torture and 
other gross violations of human rights?
    Mr. Teng. Thank you very much. After the Global Magnitsky 
Act enacted, we have founded the China Human Rights 
Accountability Center this January. And we tried our best to 
collect the information, the evidence of the human rights 
abusers and corrupt officials, including the current minister 
of public security.
    And we have provided materials to the State Department. And 
we have established a website.
    So first is, it is difficult to collect some information 
and sometimes it is hard to meet the requirement of the 
American government.
    And second, we understand that the President of the United 
States has discretion power to use this Magnitsky Act more or 
less. So, I do hope the American Congress, the CECC, can send a 
clear message now to give pressure to the White House and the 
President. Now it is very, very important to implement the 
Global Magnitsky Act, especially regarding Chinese corrupt 
officials and perpetrators because the United States should not 
be a safe haven to Chinese perpetrators and corrupt officials. 
Thank you.
    Chairman Rubio. This is a general question for the whole 
panel. If you speak to people involved in setting policy in the 
new administration, their argument is they do want to raise 
human rights issues, but they believe they are best raised one-
on-one in private meetings in an effort to allow the Chinese 
Communist Party officials to save face, in essence to not be 
embarrassed publicly, that they respond better to a private, 
one-on-one settings as opposed to public denunciations of the 
kind that we are conducting here today.
    The flipside of it is, I know that one of the arguments 
oppressors make, not just in China, but all over the world to 
the oppressed is nobody cares about you, everyone has forgotten 
about you, you might as well give up because you are just not 
important enough, and the United States is not going to harm 
their relations with us because of your case.
    What is your view on, number one, the idea that somehow 
human rights are best raised with the Chinese officials 
privately versus the sort of more open, you know, more open 
highlighting of these cases for the world to see?
    And second, is what we do here, irrespective of the 
administration, is what we do here, whether it is on this 
Commission, on the Senate floor, on the House floor, in our 
letters and our resolutions, does it matter, does it make a 
difference?
    I certainly know they read it in the Chinese Government 
because I know they get upset about it, but what about the 
activists? What impact does it have? Because it is important 
for our colleagues sometimes to understand the impact that what 
we do here is not simply symbolic. And if it is, I want to know 
that, too, obviously.
    So two separate questions: Is there the view of the private 
versus public? And second, what about our role here in Congress 
and when we have meetings on this Commission or make statements 
or do resolutions, does that have an impact, does that matter?
    And if you want to go first, Mr. Halliday.
    Mr. Halliday. I cannot say what kind of efficacy there is 
in private interventions, but China's government seems much to 
prefer these.
    However, in my empirical research and the work of our team, 
speaking to many activist lawyers over many years, there is 
absolutely no doubt in their minds that China must be spoken to 
publicly and China must be publicly shamed.
    I have no doubt that when the world speaks out loud and 
publicly, China listens. China has a very thin skin.
    When the American Bar Association awarded its international 
human rights prize to detained lawyer activist Wang Yu, within 
48 hours, the Global Times had an editorial trying to rebut 
that recognition. That tells me that not only was China 
listening, but China felt it had to respond.
    And finally, the point that you made, Mr. Chairman, is that 
in our interviews with notable activists, time and again they 
have said that when there is a public call for their release or 
public call for news about them, their treatment is improved. 
They can perceptibly point to the day, the week, or the month 
when their treatment changes as the international community 
turns the spotlight publicly on their plight.
    Mr. Teng. Yes. I think both private and public pressure 
dialogues are useful. But I think, this kind of pressure should 
not be only lip service. It should be giving real pressure to 
the Chinese Government and there should be a follow up. So you 
should send a clear message to Chinese Government that this 
human rights issue or at least the political prisoners or one 
certain case, you know, really matters. And it should have a 
negative consequence if you do not respect your own 
constitution or the international human rights standard.
    And when I was detained and tortured the United States is 
my important hope. So if the United States refuses to pay 
attention to Chinese freedom and human rights and the people in 
the prison, the people would be very hopeless.
    Mr. Xia. I think that both private and publicly is needed. 
Because for the private part, I think for the individual cases, 
like Chen Guangcheng, the American government can talk to the 
Chinese Government personally to save those individuals in 
specific cases.
    And for the public, sort of for the underprivileged people 
who are under threat. So, I think the private should work for 
the lawyers and human rights defenders who are already 
persecuted and the public ways working for the underprivileged 
people to protect them in the future.
    And I think that the Congress is definitely working. It is 
not just our voice being heard. But for example, I went to the 
Chinese embassy with my petition and my signatures, but as a 
Chinese legal citizen nobody would even see me. But I can talk 
through here, and the Congress has the power to talk with the 
White House, and the White House has the power to summon the 
Chinese ambassador to respond to my petition. So, I definitely 
think that Congress is doing some work.
    Thank you very much.
    Ms. T4Li.  I think it is just a matter of accountability. 
Like, whatever is privately said, nobody knows who is going to 
hold people accountable, both the Chinese officials and the 
United States officials. We do not know what was promised, what 
was raised. And how can you hold anybody accountable if nothing 
happens afterwards?
    And the other issue is the information in bans. In China, 
there is already so much secrecy, secret detentions, secret 
interrogations, disappearances, and now they just revised the 
government public information disclosure to make it practically 
no information would be disclosed. So we already do not know so 
many things and then we are going to advocate further secrecy 
in human rights discussions?
    I think we are not on the playing field when we are talking 
about United States officials meeting with Chinese officials. 
So, I think abusers of human rights are mostly afraid of the 
sunshine, they are afraid of information, they are afraid of 
the people knowing what they did and afraid of being asked to 
change their behaviors.
    Chairman Rubio. In the past when we have interacted with 
rights activists and others in China, a number of them have 
told us that they have experienced some level of harassment, 
even when here in the United States, even on Capitol Hill 
actually by those working on behalf of the oppressors.
    But more importantly, the sort of implied threat that they 
could reach them anywhere in the world, that if they had to 
reach out and affect their lives in some way, they could do it, 
that they really were not safe anywhere, these sort of threats.
    I just wanted to ask because all of you have been so vocal 
and open on some of these issues. Have any of you, if you are 
comfortable sharing obviously, ever felt as if you have been 
the subject of that sort of implied or direct threat of 
intimidation, either here while present in the continental 
United States, even perhaps because of your appearance here 
today?
    And if you are not comfortable saying, then obviously that 
is an answer, too.
    Mr. Xia. I would like to share some of my experience. After 
my father was arrested, he was completely missing. We did not 
receive any word, so we do not know where they took them or who 
took them. That is one of the pressures we got.
    And the police also summoned my mom to ask her to divorce 
my father. And I was on a certain list, my mom, that is the 
reason why my family sent me here to keep me safe.
    But I think the first two years, I was threatened by the 
government and I kept silent.
    Chairman Rubio. I apologize. The first two years while you 
were still in China or while you were here?
    Mr. Xia. Here, yes. My first two years here.
    Chairman Rubio. How were you threatened?
    Mr. Xia. For example, the lawyer Wang Yu, his family 
members just taken away by the secret agents in the airport. 
And also, the police officers went to my family friends and 
other family members to threaten them. And me and my mom kind 
of got isolated. So, I am just worrying about everything and I 
was scared. I just kept silent here.
    But I have learned what is right to do and what is justice, 
I would say, so the pressure turned to my power and I would 
have a chance to speak here.
    Chairman Rubio. So to be clear, while you were here already 
for the--how long have you been here now?
    Mr. Xia. Two years.
    Chairman Rubio. In the two years that you have been here, 
there were times where you chose, at least initially, to be 
careful what you said or spoke out for fear of retribution 
against friends and/or loved ones in China?
    Mr. Xia. Yes. So, yes, basically, they just went to my mom 
and I was scared. Yeah. Because when the police officer broke 
into my house, I was there, I saw everything. And honestly, my 
family did not share with me all the political stuff when I was 
a child. So, I was scared badly, yes.
    Chairman Rubio. Mr. Biao.
    Mr. Teng. I have a lot of stories that my friends, 
including Chen Guangcheng and some activists in the United 
States, were intimidated by the Chinese Government when they 
were here, even including some activists were attacked 
physically when they were in a protest.
    I myself, when I was----
    Chairman Rubio. Attacked physically here in the United 
States?
    Mr. Teng. In California, yes, by some unidentified persons. 
And obviously, they were hired by the Chinese Government or 
Chinese embassy.
    And when I was in Boston at Harvard Law School, my wife and 
one of my daughters were banned from going to the United 
States, so we were separated for nearly one year. Obviously, 
the purpose of their travel ban is to silence me.
    And last winter, my wife was fired by the company she was 
working for because of the clear pressure from the Chinese 
Government. So they use all kinds of collective punishment to 
marginalize, to silence, to intimidate the human rights 
activists in the United States.
    Chairman Rubio. Okay. I know the Cochairman has further 
questions.
    Representative Smith. Thank you very much, Mr. Chairman.
    Can I just ask you, Mr. Teng, you might want to speak to 
this, how the crackdown on lawyers, and maybe, Mr. Halliday, 
you as well, the crackdown on lawyers, how has it impacted on 
civil society? It seems when you go after lawyers, the impact 
has to be even more profound.
    We know the NGO law, the religious freedom crackdown that 
has gotten even worse on Xi Jinping, tightening the screws, 
making it harder and harder.
    And then when you are the last resort, and, Dr. Li, you 
might want to speak to this as well, does this just chill civil 
society?
    Mr. Teng. Yes. Internally, there are altogether 300,000 
lawyers, but only several hundred human rights lawyers. And 
during the 709 crackdown, almost all active and famous human 
rights lawyers were either arrested, disappeared, or 
interrogated. So for the whole civil society, it is harder than 
before to find a human rights lawyer to represent their cases, 
so the vulnerable groups, the Tibetans, Uyghurs, Falun Gong and 
other religious groups, the petitioners.
    So they were also targeted, many of these other activists. 
And I know house churches were arrested and sentenced. And 
lawyers have more risk than before to take these sensitive 
cases.
    So the chilling effect of the roundup of human rights 
lawyers is very strong. And many lawyers have to give up and 
have to keep silent. But on the other hand, some new lawyers 
can still stand up to join the human rights movement and some 
new activists are courageous enough to stand up, to speak out.
    So what the government wants to achieve is some total 
silence, but I do not think the Communist Party can destroy the 
whole civil society, the whole movement completely.
    Thank you.
    Representative Smith. Let me just--yes, Dr. Halliday?
    Mr. Halliday. May I add that civil society comprises a vast 
number of people in China. And following Dr. Teng Biao, the 
Communist Party's apparent belief that it is possible 
indefinitely to repress hundreds and hundreds of millions of 
people who want to be able to express their views or who want 
legal representation, seems highly questionable.
    If you imagine the Christians alone, 80 million to 100 
million Christians, China's largest civil society group, can 
you entirely cut them off from any kind of connection or 
leadership with these notable activist lawyers or grassroots 
lawyers more broadly.
    But it does seem clear to me that the intent of the Party 
is to take lawyers who were previously able to represent people 
in the kinds of grievances that Dr. Teng Biao has just 
mentioned and suddenly change the minds of the Chinese people 
about the role that these lawyers play.
    As one eminent China specialist has said, in the past, 
lawyers were seen as representatives of people who were 
vulnerable and had grievances. Now, with charges of subversion 
against lawyers China's leaders are saying that lawyers are 
enemies of the state, lawyers are enemies of the Party, lawyers 
are enemies of China.
    So there seems a very deliberate effort simultaneously to 
crush civil society, which I cannot believe can continue 
indefinitely, and at the same time to disconnect civil society 
from the kind of leadership offered by activist lawyers.
    Representative Smith. Yes, Dr. Li.
    Ms. Li.  In fact, the crackdown on lawyers is shorthand 
because a lot of them are not lawyers. For example, Teng Biao 
mentioned Wu Gan who is still in detention facing trial. And 
several of them have already been sentenced, like Hu Shigen 
and--as I said, yes, these people are also--crackdown on 
lawyers.
    And the second point I think you brought up is the overseas 
NGO law. You know, we have a lot of international NGOs 
protesting. But in fact, the law most directly impacts domestic 
Chinese NGOs because several leaders of those NGOs have been 
detained, they have been interrogated and incriminated for 
taking foreign funding or working with foreign organizations.
    We should particularly mention Wang--and those are local 
human rights NGO directors.
    And the third point I want to say is, China has 
systematically been revising or putting out new laws, like the 
national security law, the international security law, the 
anti-terror act, and one by one further restricting space for 
civil society and using state security to persecute people in 
not only physical space for organizing, for freedom of 
association, but the online space for speech and information.
    So what we are looking at, it is not only the unusual quiet 
of civil society, but also the infrastructure changed to 
further repress any development of civil society.
    Representative Smith. I just have one more question and one 
comment, if I could.
    If there are any lobbyists or lawyers representing the 
Chinese embassy here today, you do not have to stand up, but it 
would be nice if you would. But I would ask you, and I mean 
this with respect, would you be willing to take the petitions 
with some 90,000 signatures back to the Chinese embassy?
    Come and see me or one of the witnesses or Chairman Rubio 
before the hearing is over. But it would be nice if you would 
consider doing that.
    I, too, have gone to the Chinese embassy to deliver 
petitions. And we stood outside and never even got in through 
the door. It was appalling, lack of diplomatic civility.
    My final question would be to Dr. Li or anyone who would 
like to speak to it. Back in the 1980s, I traveled, I have been 
here since 1981, with Armando Valladares who Ronald Reagan so 
wisely picked to be our head of delegation, made an ambassador. 
He had spent, as Marco Rubio knows, who has been absolutely 
tenacious in fighting against human rights abuse all over the 
world, but including Cuba.
    Armando Valladares wrote a book "Against All Hope" which 
revealed the absolute and horrific use of torture and all kinds 
of repression by the Castro brothers and the entire regime.
    And my takeaway from that trip, besides pushing for human 
rights in Cuba, was the hypocrisy of the United Nations Human 
Rights Commission. That was replaced by the Human Rights 
Council, which was with promises and bells and whistles about 
how it would be different. And yet, rogue players, including 
Cuba today, China today, sit on that panel and spend most of 
their time criticizing Israel while China, even during its 
periodic review, gets through almost unscathed.
    On one of those more recent trips to Geneva for a Human 
Rights Council meeting, I went to the press conference being 
hosted by the Chinese and asked one question after another of 
their ambassador who finally just shut down and left and walked 
out the door because they did not want to answer any real 
questions. They wanted softballs by a compliant press, kissy-
faced diplomacy by people who say, oh, are you not just great 
and making progress, while people are being tortured and 
treated with impunity.
    My question would be, and, Dr. Li, you might want to speak 
to is, as backers of the Convention Against Torture, Manfred 
Nowak, I may be wrong on this, was the last one to actually get 
into China as a special rapporteur. And that was, what, 2005? 
And yet, we get all this talk and this talk of transparency and 
openness, and yet special rapporteurs cannot get in to look at 
the torture situation.
    And I would just say parenthetically, when I was pushing 
against what Google was doing in censoring the internet and 
doing just what the Chinese Government wanted it to do, when 
you went and put in ``torture,'' and I did it myself in a cafe 
later on, years later in an internet cafe in Beijing, you write 
in ``torture'' and you get Gitmo and you get what the Japanese 
did, which was horrific, to the Chinese during the Second World 
War. Nothing about Manfred Nowak's work or any of the other 
commentaries on the pervasive use of torture by the Chinese.
    How do we get the United Nations Human Rights Council--I 
have brought it up personally with Prince Zeid, the high 
commissioner for human rights, and said the respectability of 
your group and the council itself as well as your bureaucracy 
are compromised when you look the other way. And that is what 
is happening through these horrific offenses now against human 
rights defenders by human rights abusers with the prevalent use 
of torture.
    How do we reform the Human Rights Council and get the 
United Nations to finally step up and say--as was said earlier 
in testimony they are thin-skinned. When that ambassador walked 
off the stage, it was, like, let us engage, however long it 
takes, show me where I am wrong. You know, and I, of course, 
have had a lot of documentation in my hand I handed to one of 
his deputies as he walked out the door.
    Ms. Li.  When China was being voted for the last Human 
Rights Council membership, among 193 countries, 185 voted for 
China. The number could be 184, 186, but it is about that many. 
So do the math, where are the pro-democracy, pro-human rights 
governments? What are they voting? Whom are they voting?
    So it is very difficult to fight at the United Nations for 
human rights abusers, just as here, in this country, 
everywhere. But that is not a reason for us to back down.
    And the way I am saying this is, first, when the United 
Nations high commissioner for human rights sends out a 
statement about lawyers, about Liu Xiaobo, about Tibet, China 
protests immediately. That means it matters. It matters when 
voices are coming out of that forum.
    During any kind of treaty review of China's obligations to 
not only the Commission Against Torture, but socioeconomic 
rights, rights of the child, they would send a huge delegation. 
To do what? To work on the members of the treaty committees 
one-on-one to issue threats, to basically just try to get them 
to talk differently. And this did not work in most cases, I 
think, as the members are pretty independent.
    So what it means is that the Chinese Government does care 
about face and they do not want to lose face in those forums. 
That means it is important for us to present solid evidence at 
the same time while the government is trying to influence those 
reviewing processes, including the Universal Periodic Review. 
Civil society should also use that forum. Other governments 
should also use that forum to fight them nail and tooth to 
really be using that forum rather than saying, OK, we give up, 
when this forum is discredited, we are out of here.
    Then you know what is going to happen? China is increasing 
its donation to the United Nations and they are becoming ever 
more active in the Human Rights Council and all the United 
Nations human rights forums. And they are going to buy, they 
are going to lobby, they are going to get votes from other 
countries. And they are going to not only get away from their 
human rights violations, but change that institution.
    They wanted to rewrite the treaties, they wanted to do all 
that to get away from basically. So, I think all this means it 
is a very important battleground, we should not give up on it.
    Mr. Halliday. Mr. Cochairman, may I also say that as a U.S. 
citizen and as an observer of international influences on 
China, I feel it is imperative that the U.S. Government should 
maintain its leadership position in the United Nations Human 
Rights Council.
    I know you raised the question of reform and I know that 
there are issues there. Nevertheless, it is critical that China 
does not erode or dilute universal norms of law or lawyers or 
rights.
    And the Human Rights Council, despite its defects, is 
nevertheless a prominent forum. It is a prominent forum not 
only for states that will be outspoken and bold in support of 
the international moral and political order, but it is a 
crucial forum for non-state organizations to be able to bring 
their observations into this United Nations forum. It asserts 
global norms and maintains some kind of level of 
accountability.
    I would say, frankly, that for the United States to 
surrender to an authoritarian country like China would be 
defeatist and, indeed, ultimately, it will be 
counterproductive, both for the foreign policy of the United 
States, but also for the international moral and legal order.
    Thank you.
    Representative Smith. Thank you.
    Chairman Rubio. I just have one follow-up question on that. 
And that is, for example, about two weeks ago we saw the nation 
of Panama break its relations with Taiwan for purposes of 
appeasing a position that China had exerted influence.
    I have had cities in my home state come to me and ask for 
us to open the way for Chinese consulates. But, of course, the 
price of opening a Chinese consulate in a city is the closure 
of a Taiwanese one. So we know that these efforts that you have 
described in terms of pressure diplomatically, they also exert 
on nations outside that context and even here domestically.
    And I was just curious whether anyone here had had an 
experience here in the United States where you were either not 
allowed to speak or disinvited at a university, to a business, 
at a media outlet, anywhere where you felt that perhaps your 
voice, that your potential hosts were dissuaded from giving you 
an opportunity to participate because of pressure from China 
here in the United States.
    Mr. Teng. Yes. So, I have two examples. My scheduled 
speeches were canceled by universities in the United States.
    Chairman Rubio. Which ones, which universities?
    Mr. Teng. One is Harvard.
    Chairman Rubio. Harvard.
    Mr. Teng. Yes.
    Chairman Rubio. Why did they tell you they canceled the 
speech?
    Mr. Teng. I think two years ago when the president of 
Harvard was visiting China and Chen Guangcheng and I were going 
to give a speech at Harvard and they canceled it.
    And I think last time when I was here, I gave a testimony 
about my own book, it was canceled by ABA, American Bar 
Association. So they invited me to write a book and I signed 
the agreement, but they later rescinded the proposal saying 
that publishing my book will endanger their programs in China.
    Chairman Rubio. So the American Bar Association, which 
represents lawyers and, therefore, defenders of justice, 
canceled the publication of a book that they invited you to 
write because they were afraid it endangered their programs in 
China?
    Mr. Teng. Yes.
    Chairman Rubio. We did write a letter in that regard, but I 
want people to hear that so that they understand that this is 
not something happening halfway around the world. They are 
doing it to people and organizations in the United States with, 
I imagine, the threat of being unable to participate in 
activities in China, either economic or other repercussions.
    Is there any other--do you have another one, or those are 
the two that come to mind? You said there were two 
universities. Do you remember what the second one way?
    Mr. Teng. No, no, just----
    Chairman Rubio. Harvard.
    Mr. Teng. Yes. So there are some other examples. They tried 
to invite me, but because I am sensitive, I am going to talk 
about human rights, politics, and they refuse to invite me.
    And a lot of experiences that when I was giving a talk in a 
university, the other department, like Chinese department or 
Confucius Institute, they refuse to forward the posters and 
they told their students not to come to my presentation.
    Chairman Rubio. Did someone else have something to add? I 
thought I--anyone else have a similar experience that they 
could share?
    Well, do you have any further questions?
    Representative Smith. No, just thank you again, Mr. 
Chairman.
    Chairman Rubio. Well, I thank you all for being here. I 
know at varying degrees, but across the board it takes some 
level of real courage, we have heard, not just about the 
threats of cancellation, but the real risks to family. And we 
are blessed to live in this republic where oftentimes the worst 
thing that happens is somebody says something really mean about 
us on Twitter.
    And these hearings are a good reminder that in many parts 
of the world, including the most populous nation on earth, the 
consequences of speaking out or dissent are significantly 
higher. And I think it speaks to the essence of who we want to 
be as a nation, as a people. Is America simply a geographic 
territory? Or is it also an idea? And if we are an idea, then 
that idea is that we believe all human beings are entitled to 
rights that are given to them at birth by their Creator and 
government's job is to protect them, not to decide them and 
certainly not to deny them.
    And we seek not to impose our point of view on the world. 
Some people would disagree with that statement, but I am not.
    Nor do we seek to contain China. China is an ancient, 
revered culture with thousands of years of contribution to 
mankind, some of the greatest inventions and innovations in 
human history came from China. It is a nation with an 
incredible history and I believe an incredible future.
    I welcome China's rise in many ways. I do not welcome a 
totalitarian state's rise. I do welcome China's rise because I 
believe its people have the opportunity to contribute. And we 
seek partnership with the people of China to solve--just think 
about the problems in the world today. If somehow there was a 
Chinese Government that cared about the rights of all mankind, 
combined with it could work together with us, I think we would 
be a lot further along on some of the major issues confronting 
this country.
    But when you do not care about the rights of your own 
people, why would you care about the rights of anybody else? 
And that is our problem with the Chinese Communist Party and 
its leadership, not its people.
    And I remain hopeful that that will change. But in the 
interim, we will continue hopefully to speak on behalf of those 
who agree with us, but do not have the opportunity to express 
it openly in the nation of their birth.
    So we are just grateful to all of you for being here and 
for your time, for your testimony, for your contribution. We 
look forward to sharing your testimony with our colleagues and 
continuing to address these issues time and again.
    And with that, thank you for starting the meeting today, 
again, to our cochairman.
    With that, our hearing is adjourned.
    [Whereupon, at 3:55 p.m. the hearing was concluded.]

                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


               Prepared Statement of Terence C. Halliday

                             june 28, 2017
                              introduction
    Mr. Chairman, Mr. Cochairman, and distinguished Members of the 
Commission, I am privileged to be invited to participate in this 
hearing. I have a long-standing admiration for the work of the 
Commission.
    In my opening remarks, I address the meaning and significance of 
China's unprecedented crackdown on lawyers almost two years after its 
onset in early July, 2015.
    My comments are derived from the empirical research of my research 
team into criminal procedure law and criminal defense lawyers over the 
past twelve years. Our findings, published in our book, Criminal 
Justice in China, concludes that China's legal system and legal 
profession have come an enormous distance since enactment of the 1979 
Criminal Procedure Law. Nevertheless, on a critical number of issues 
integral to the defense of basic legal freedoms, China has turned away 
from reform both in its law and its treatment of a key segment of the 
legal profession.
    A sudden turning point occurred on July 9, 2015 when China launched 
a nationwide crackdown on activist lawyers.
    The `709 crackdown,' as it has been colloquially labeled, has been 
unprecedented in scale and severity. Within days, hundreds of lawyers 
across China were detained, disappeared and interrogated. Lawyers have 
been intimidated, tortured, charged with serious crimes and sanctioned 
severely.
    Why did this crackdown occur?
    Research on activist lawyers reveals deep grievances held by 
hundreds of millions of Chinese who suffer from health-threatening 
pollution, from takings of their houses and land, from widening 
inequality, from religious controls and persecution, from 
discriminatory treatment of minorities, from inadequate protection of 
workers and women, and from exploitation and vulnerability of migrant 
laborers, among others.
    The sheer quantity of disaffected and angry populations can fuel 
widespread unrest. Lawyers often become the help of last resort when 
every other channel has failed. Therefore, over the past several years 
the Chinese Community Party has faced a double-threat to its survival: 
on the one hand, economic and social problems appear to be multiplying 
and intensifying; on the other hand, lawyers increasingly have been 
articulating and expressing those grievances through law in highly 
visible ways.
    What precipitated the crackdown on lawyers on July 9, 2015?
    1. Over the last several years, activist lawyers significantly 
increased in numbers. Hundreds of new activists, many of them young and 
well-educated, signaled their willingness to join the frontline.
    2. Lawyers magnified their ability to mobilize. Since 2011 lawyers 
increasingly came together as large defense teams in difficult trials. 
Through social media, activist lawyers could create instant crowds to 
rush to a courthouse or defend a lawyer being harassed by police. 
Nationwide online networks could mobilize hundreds of lawyers for new 
cases or emergency situations.
    3. The power of social media multiplied the impact of a new type of 
lawyer . So-called ``die-hard'' lawyers actively used social media and 
street theatre to activate supporters and expose problems in defending 
their clients. Some lawyers had accumulated thousands or even millions 
of followers on Weibo, China's equivalent to Twitter.
    Clearly, China's leaders felt vulnerable to activist, die-hard and 
ordinary lawyers' enhanced powers to mobilize publics.
    What motivates these lawyers to exhibit such courage in the face of 
a regime that does not hesitate to use inhumane and even life-
threatening measures against its opponents?
    Our research reveals that courage for many lawyers arises from 
their own life experiences, such as harms to parents during the 
Cultural Revolution, participation in the 1989 Tiananmen student 
movement, or shocking experiences in their legal practice.
    Many lawyers build their courageous representation upon legal 
ideals that underwrite a good political society. First, they insist on 
protection of basic legal freedoms, such as right to be represented by 
a lawyer, due process in trials, and fair adjudication. They insist 
upon freedoms of speech, association and religion. Second, they are 
committed to a vibrant civil society as it is expressed through 
voluntary associations and an open public sphere. Third, these activist 
lawyers strongly oppose arbitrary executive power and call for checks 
and balances within the state.
    Our research documents that many lawyers, notable and ordinary 
practitioners, draw their courage also from their Christian faith. 
Christians insist upon the values of equality, most importantly, that 
in the eyes of God and the eyes of the law, said one, ``Chairman Mao is 
as equal as me.'' They champion the Judeo-Christian emphasis on a 
political and legal order that delivers justice, often quoting, like 
Martin Luther King, the biblical prophets Amos and Micah. They believe 
in fairness--that justice should be available reliably and fairly to 
all, whether they are Han Chinese or Tibetan, Party members or Falun 
Gong members. Finally, they hold China's law accountable to God's law.
    I consider it probable that Party leaders fear Christian lawyer-
leaders who have strong relationships with Protestant churches across 
China and some who have significant international connections.
    What does the lawyer crackdown tell the world about China's future?
    Viewing China through the lens of courageous lawyers reveals that 
legal change has turned toward repression, a repression which has taken 
deeply sobering turns since mid-2015.
    Nonetheless, deep impetuses for change remain within China. 
Repressive actions may be self-subversive. Notable activists refuse to 
surrender easily or to go quietly. Their wives, their comrades, spring 
to their defense. Significant numbers of grassroots lawyers continue to 
harbor visions of alternative legal-political futures. An international 
community ratchets up its efforts at solidarity, pressure and support 
for defense of lawyers.
    Where goes China may depend very considerably on where go its 
lawyers. Will it follow long peaceful paths of reform and the expansion 
of basic legal freedoms offered by the activist lawyers. Or will China 
lurch towards a violent explosive path that could lead to fearful 
unpredictable outcomes?
                            recommendations
    The United States Government and the international community of 
states, international organizations, and publics should stand in 
solidarity with China's activist lawyers and hold China's practices 
strictly accountable to global standards, most importantly those 
inscribed in U.N. conventions, principles, and institutions. These are 
applicable to all persons, all places and all states without exception.
    The United States Government should maintain its leadership 
position in the United Nations Human Rights Council and other 
authoritative international bodies so that China does not erode or 
dilute universal norms of law, lawyers, and rights.
    The United States Government should use all means at its dispoal, 
including joint statements with other states, bilateral dialogues, and 
monitoring by U.S. agencies to press China to adhere to global 
standards in its treatment of all its lawyers, most especially those 
swept up in the crackdown.
    The current administration should strengthen the capacity of the 
U.S. Department of State and other executive agencies to monitor 
treatment of vulnerable populations in China and particularly lawyers 
who represent those populations.
    U.S. Government agencies, including the CECC, should mobilize U.S. 
firms operating in China to recognize the dangers their employees and 
partners face as China offers less and less protections to persons 
inside China who cross invisible lines being drawn and redrawn by 
China's security apparatus.
    The United States should lead other states in the call for release 
of activists being punished for their rights defense work, and reject 
the criminalization of their legitimate exercise of rights protected by 
Chinese and international law.
                                 ______
                                 

                    Prepared Statement of Teng Biao

                             june 28, 2017
    Mr. Chairman, Mr. Cochairman, and distinguished Members of CECC, 
I'm honored to be invited to testify at this specially important 
hearing. The coming July 9, the 2nd anniversary of 709 crackdown, there 
will be events in DC, HK, Taiwan and some European cities to mark the 
inaugural china human rights lawyers day, which I have been organizing 
and coordinating for months.
    Chinese human rights lawyers have since 2003 become one of the most 
active and effective forces in China defending rights and freedom, and 
inevitably, have been the target of government's persecution since the 
beginning of the rights defense movement in China. Gao Zhisheng and 
other lawyers were put into prison and brutally tortured. Because of my 
work of promoting human rights and democracy since 2003, I was 
disbarred, banned from teaching and eventually fired, banned from 
travelling, and kidnapped for three times by the secret police. In 2001 
I was detained in a black jail for 70 days in an extreme form of 
solitary confinement, physically and mentally tortured. My wife and 
daughter were banned from travelling abroad, and my wife was fired the 
company she worked for due to the pressure from Chinese government. 
Collective punishment is frequently used by Chinese authorities to 
maximize intimidation. The purpose of torture and collective punishment 
was to make me stop my human rights work but I didn't.
    The persecution of rights lawyers reached its peak on July 9, 2015, 
known as the ``709 crackdown.'' More than 320 human rights lawyers were 
kidnapped, detained or interrogated. Eight of them are still in prison. 
Wang Quanzhang is still disappeared since July 28, 2015,his family and 
lawyers don't even know whether he's alive or dead. Dozens of lawyers 
were severely tortured, including beatings, electric shocks, sleep 
deprivation, prolonged interrogations, death threats, months or years 
of solitary confinement, humiliation, forcible televised confessions, 
so on and so on. Notably, it has been confirmed that many lawyers and 
activists were force-fed with medicines which caused them muscle pain, 
blurred vision and other physical and mental harm.
    The prison conditions and the treatment in detentions are extremely 
inhuman and cruel in China. Just the day before yesterday we received 
news that Nobel laureate Liu Xiaobo has been diagnosed with late-stage 
liver cancer. Ill treatment in custody may well have contributed to the 
disease; we know for certain deliberate neglect aggravated the cancer, 
given how advanced the disease appears. I request sincerely that you 
esteemed members of the Commission and all people who support freedom 
in China, please do something to urge Chinese government to 
immediately& unconditionally allow Liu Xiaobo to obtain medical 
treatment wherever he wants.
    Suppression has increased markedly not only against human rights 
lawyers, dissidents and NGOs, but also against media, churches, 
religious groups labeled ``evil cults'' including FalunGong, 
petitioners, activist netizens, liberalized scholars and artists. In a 
report published in February 2017, Chinese Human Rights Defenders 
(CHRD) documented the deteriorating situation of rights defenders and 
NGOs. Many new and ongoing cases of enforced disappearance, arbitrary 
detention, and acts of torture were reported, and the number of 
criminal detention and conviction, especially the use of ``endangering 
state security charge'' were increased. A human rights activist felt 
the difference, ``There are no more `gray areas.' To advocate for human 
rights in China today, you must be willing to accept the reality that 
the government views your work as `illegal'.'' (CHRD 2017) Chinese 
government has obviously tightened control over information 
dissemination, teaching materials, publishing and social media. Some 
laws and regulations, with a clear purpose of controlling and 
oppressing the rights defense movement and civil society, were put into 
effect. State Security Law, Foreign NGO Management Law, Charity Law, 
Cyber security Law, etc, have already curtailed the development of 
rights activism and civil society, putting fundamental rights and 
freedom in danger.
    The ``Rights Defence Movement'' (weiquan yundong) has emerged since 
early 2000s as a new focus of the Chinese democracy movement, after the 
Xidan Democracy Wall movement in late 1970s and the Tian'anmen 
Democracy movement in 1989. The main political-social factors behind 
the rise of China's rights defence movement are as follows: recovery of 
legal professions, new ideological discourse, new space for traditional 
media and the rise of the internet and social media, the development of 
the market economy, and China's entry to global economy; the 
dissemination of liberalism ideas and expanded consciousness of civil 
rights.
    Let's take a brief look at the history of the Chinese Communist 
Party. When the CCP was facing a deep political and economical crisis 
in the late 1970s after waves of political campaigns and the brutal 
Cultural Revolution, it had to introduce a process of legalization and 
marketization. Legalization was necessary for establishing social order 
and market economy and thus was beneficial to the political system when 
mass mobilization was not applicable to the political-social situation 
any more. Millions of laws and regulations were made, legal professions 
were recovered, but the CCP never meant to accept a democratic 
transition or a system with rule of law. Oppositional politics is 
prohibited, but as an unintended consequence, we lawyers and rights 
advocates tried our best to use existing legal channels to defend human 
rights and freedom. Starting with a narrow space, the rights defense 
movement attracted more and more supporters, such as lawyers, bloggers, 
pro-democracy scholars, petitioners, persecuted religious groups, 
victims of human rights abuse, and political dissidents. These are 
incredible achievements under such a repressive regime, for the past 14 
years, the development of the rights defense movement was expressed 
through at least four trends, namely, organization (zuzhi hua), street 
activism (jietou hua), politicization (zhengzhi hua) and 
internationalization (guoji hua).
    There is a clear limitation to China's legalization, that is one-
party rule, the number one priority of the CCP. Once the CCP senses the 
use of law could be a potential challenge, it never hesitates to nip it 
in the bud. Not long after the emergence of the rights defense 
movement, the Chinese government saw it as a real threat to the regime 
and never stopped its crackdown. When Xi jinping took his office, what 
the CCP was facing was increasing crisis: political, economical, social 
and ideological crisis. The calculation of Xi jinping and top CCP 
leaders is that without a ``war on law'' to destroy the resisting 
ability of the social and political movement a color revolution will 
occur and thus the monopoly of power of the CCP will be in danger. This 
is the political background of ``709 crackdown'', the worst crackdown 
on lawyers since the recovery of judicial system in late 1970s.
    Upon the more brutal suppression and tighter social control under 
Xi Jinping's rule since 2013, some analysts asserted ``the end of the 
rights defense movement'', but, in my opinion, the idea of the rights 
defense movement is still showing its exuberant vitality, the spirit of 
the rights defense movement is still gaining moral and social support, 
and the persistence of the rights defense movement is still shaping 
China's politics like unstoppable lightning in the darkness.
    Once again, the CCP's war on law makes it urgent and necessary to 
change U.S. human rights policy towards China.
    In 1989, the CCP crushed a non-violent democracy movement with 
machine guns and tanks, killing hundreds of students and civilians. 28 
years have passed since the Tiananmen massacre and it is a shock to 
many people when they take a retrospective look at what happened to the 
relationship between China and the rest of the world. In 1989, all 
democracies condemned the Tiananmen massacre, sanctioned Chinese 
dictators and supported Tiananmen activists in jail or in exile. Yet 
very soon Western leaders couldn't wait to welcome Chinese butchers and 
dictators, rolling out their red carpet, replete with eager hugs and 
state banquets. In 1994 U.S. Government granted permanent most-favored-
nation (MFN) status to China to delink human rights to trade, despite 
protests from human rights groups. Then China was allowed to enter the 
WTO and international markets. China was given the opportunity to host 
Olympics, World Expo, APEC and G20. China was voted in as a member of 
United Nations Human Rights Council again and again.
    Now China has become the second largest economy. China is playing 
an active and aggressive role on the international stage. The Asian 
International Investment Bank (AIIB), ``One Belt One Road'', South 
China Sea aggression, internet sovereignty, cyber attacks, abducting 
overseas booksellers and activists, Confusion institutes which erode 
academic freedom--the list goes on. China is demanding a re-write of 
international norms, wanting to create a new international order in 
which rule of law is manipulated, human dignity is debased, democracy 
is abused, and justice is denied. In this international order, 
corruption and persecution are ignored, perpetrators are immune, and 
dictatorial regimes are united and smugly complacent.
    China then gained the clout to say no to the West and the West 
kowtows to China through self-censorship and a policy of appeasement. 
Besides short-term pragmatic interests, I would like to point out that 
U.S. human policy towards China has long been based on a series of 
erroneous theories and mistaken presumptions regarding Chinese politics 
and Chinese society. I don't have time to go into details but the 
erroneous theories cover misunderstandings of China's market, 
constitution, rule of law, international accountability, NGO, so on and 
so on.
    I'd like to offer a few recommendations here:

        <bullet> Link HR to trade and other important issues that the 
        CCP cares about.
        <bullet> Implement the Global Magnitsky Act to ban Chinese 
        perpetrators and corrupt officials from entering the United 
        States.
        <bullet> Punish U.S. and western business which cooperate with 
        Chinese authorities and participate in human rights abuses.
        <bullet> End the 110 Confucius Institutes in the United States 
        educational institutions.
        <bullet> Don't fund the oppressor.
        <bullet> Support real NGOs not GONGOs.
        <bullet> Name and shame.
        <bullet> Expel China from the United Nations Human Rights 
        Council.
    A powerful and autocratic China will bring calamities to mankind. 
Supporting democracy and human rights in China not only corresponds to 
American declared values; it will also benefit American politics, 
society and economics in the long term. Please stand on the side of 
Chinese people, not on the side of Chinese Communist Party. China 
should be represented by the human rights lawyers, activists, 
dissidents and all Chinese people fighting for freedom and democracy, 
not the illegitimate Party and government.
                             june 28, 2017
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                   Prepared Statement of Xiaorong Li
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

 Prepared Statement of Hon. Marco Rubio, a U.S. Senator From Florida; 
         Chairman, Congressional-Executive Commission on China

                             june 28, 2017
    Good afternoon. This is a hearing of the Congressional-Executive 
Commission on China. The title of this hearing is ``Gagging the 
Lawyers: China's Crackdown on Human Rights Lawyers and Its Implications 
for U.S.-China Relations.''
    We will have one panel testifying today. The panel will feature:

        <bullet>Terence Halliday: Co-director of the Center on Law & 
        Globalization at the American Bar Foundation, and Co-author of 
        the book Criminal Defense in China: The Politics of Lawyers at 
        Work;
        <bullet>Teng Biao: Chinese human rights lawyer; Visiting 
        Scholar at the Institute for Advanced Study; and Co-founder of 
        the Open Constitution Initiative and China Human Rights 
        Accountability Center;
        <bullet>Xia Chongyu: Son of imprisoned human rights lawyer Xia 
        Lin (pronounced SHAH LIN) and student at Liberty University; 
        and
        <bullet>Xiaorong Li: independent scholar; formerly with the 
        Institute for Philosophy & Public Policy at the University of 
        Maryland.

    Thank you all for being here.
    Before we move to the topic at hand I want to take a moment to 
acknowledge the news this week regarding the reported transfer of 2010 
Nobel Peace Prize laureate Liu Xiaobo from prison to a hospital for 
treatment of late-stage liver cancer. This should not be confused with 
an act of mercy on the part of the Chinese government. His eight years 
of imprisonment--due to his eloquent appeals for non-violent political 
reform and protection of basic rights--remain a travesty of justice and 
a stain on China's rights record. And Dr. Liu's medical parole is not 
the equivalent of an early release from his prison sentence or that he 
has the freedom to meet with his wife, Liu Xia, other family members 
and friends. I've urged President Trump to seek the humanitarian 
transfer of Dr. Liu and his wife to the United States to explore what 
medical options may be available.
    I'd like to briefly read a quote from an editorial that ran in the 
Communist-Party controlled Global Times. The writers gloated, ``China 
has not collapsed as the West forecast in the 1980s and 1990s, but has 
created a global economic miracle. A group of pro-democracy activists 
and dissidents lost a bet and ruined their lives. Although Liu was 
awarded the Nobel Peace Prize, he is likely to face tragedy in the 
end.'' Any notion that Dr. Liu will receive adequate medical care under 
the supervision of his captors is absurd. I was pleased to read this 
morning that newly arrived U.S. Ambassador Terry Branstad has urged the 
Chinese government to allow Dr. Liu to seek treatment overseas.
    As the Nobel Committee noted, Dr. Liu exemplifies the ``long and 
non-violent struggle for fundamental human rights in China.'' That same 
spirit animates the work of the Chinese rights lawyers we will hear 
about today.
    July 9, 2017, marks the two-year anniversary of the start of what 
has been described as an unprecedented nationwide crackdown on human 
rights lawyers and legal advocates in China--an event that's come to be 
known as the ``709'' crackdown.
    While perhaps unprecedented in scale and coordination--nearly 300 
rights advocates were detained, summoned for questioning, or 
disappeared--the crackdown began much earlier.
    Xi Jinping's rule has been marked by extensive campaigns to silence 
political dissent, curtail civil society, and ensure ideological 
loyalty to and conformity with the Chinese Communist Party. No sector 
of society is untouched--business leaders, bloggers and social media 
users, university professors, journalists and religious adherents have 
all been targeted.
    But China's rights defenders and lawyers have been the ``tip of the 
spear'' for even longer--as our second witness, Dr. Teng Biao, can no 
doubt attest. This small, but tenacious group is closely linked to the 
growth in legal rights consciousness among ordinary Chinese citizens. 
China's ``rights defense'' movement converged around incidents of 
injustice that resulted from the single-minded drive of the Chinese 
government and the Communist Party for rapid economic growth without 
political reform.
    The victims of injustice included farmers who lost land from 
government expropriation; urban residents forcibly evicted without fair 
compensation; migrant workers trying to recoup unpaid wages; teachers, 
laid-off workers, and army veterans who lost their pensions; and 
parents whose children were made ill from ingesting contaminated milk 
powder. The movement has expanded to support free speech, the pro-
democracy aspirations of Hong Kongers, ethnic minority rights, and 
other issues.
    Our first witness, Dr. Halliday, has conducted literally hundreds 
of interviews with these men and women--a group bound together by their 
shared conviction regarding the importance of protecting basic legal 
freedoms in a system where rule of law remains aspirational at best.
    Among the lawyers featured in his latest book are those whose names 
and stories have captured headlines for the last two years. Their 
unjust and unexpected detentions nearly two years ago was, for many, 
the start of a long and harrowing ordeal marked by months in isolation, 
torture, coerced ``confessions'' and other forms of mistreatment. Some 
of these lawyers, like Jiang Tianyong--whose wife I had the privilege 
of meeting earlier this year-- remain in detention. Others, like Li 
Heping, are no longer in captivity, but the brutality they experienced 
left them visibly physically altered. Many have been disbarred and will 
never again practice law in China. Still others live under constant 
surveillance and harassment.
    It is tempting in the face of China's worsening and increasingly 
brazen human rights violations to grow disheartened. Which is why I 
think it is equally important to spend some time today examining 
another part of this crackdown that is unprecedented--and that is the 
response of some of the family members of those detained.
    By their own telling, many of the wives of these rights lawyers had 
not previously been involved in their husband's efforts to pursue 
justice and accountability from their own government. But as the 
present system conspired against them and their families, they became 
advocates in their own right. In case after case, these women took up 
the mantle of advocacy on behalf of their husbands. Their personal 
accounts of intimidation and harassment--of landlords refusing them 
housing, of children denied entry to local schools, of movement 
restricted and lives lived under constant surveillance--coupled with 
their compelling public defense of their husband's innocence, has, in 
the words of Dr. Halliday, opened up, ``new line of struggle that we 
have not seen before in China''.
    Similar courage and boldness is on display today with the testimony 
of Xia Chongyu about his father's plight.
    Even for those of us who hold steadfastly to the view that U.S. 
foreign policy must be infused with a principled defense of universal 
human rights and the promotion of basic freedoms, there remains the 
notion that change in China will ultimately come from within. I agree. 
And China's rights defense lawyers are at the vanguard in pressing for 
systemic change, in seeking accountability and redress, and in working 
toward a day when China is a nation where the law is used to protect 
rights not suppress them. It is our duty to stand with them in this 
monumental task.
                                 ______
                                 

Prepared Statement of Hon. Christopher Smith, a Representative From New 
    Jersey; Cochairman, Congressional-Executive Commission on China

                             june 28, 2017
    Chinese officials repeatedly tell me I should focus more on the 
positive aspects of China and not dwell so much on the negative.
    That is an extremely difficult task when you read the horrifying 
and sadistic accounts of torture and enforced disappearances 
experienced by lawyers and rights advocates.
    It is hard to be positive when you contemplate Liu Xiaobo's cancer 
diagnosis and the fact that China effectively silenced its most 
brilliant democracy advocate.
    The empty chair at Oslo speaks volumes about the Communist Party's 
abiding fear that freedom will upend the power of the privileged few 
when they should be seeing liberty as a path to greater peace and 
prosperity.
    At a hearing last month in the Subcommittee on Global Human Rights 
in the House Foreign Affairs Committee, I heard testimony from the 
wives of five detained or disappeared human rights lawyers. These 
courageous women have become effective advocates from their husbands 
and for all those detained in the ``709'' crackdown.
    They described in horrifying detail the physical, mental, and 
psychological torture experienced by their husbands, including marathon 
interrogation sessions, sleep deprivation, beatings, crippling leg 
tortures, and prolonged submersion in water.
    Many of their husbands also were forced to take alarming quantities 
of drugs including tranquilizers, barbiturates, antipsychotic drugs, 
and other unknown substances daily.
    What they described was shocking, offensive, immoral, and inhumane. 
It is also possible that Chinese officials believe the international 
community will not hold them accountable.
    After the hearing, I wrote to the heads of the American Medical 
Association, the American Psychological Association, the World Health 
Organization, as well as to Secretary of State Tillerson and Ambassador 
Nikki Haley.
    I have asked for condemnation of the practice of torture and 
medical experimentation on prisoners of conscience. I have also ask for 
investigations so that serious questions will be asked of the Chinese 
government.
    Finally, I have asked for accountability. I have urged Secretary 
Tillerson to start investigations under the Global Magnitsky Act, a 
bill that I lead on the House side last year, so that any Chinese 
government officials complicit in torture should never be allowed to 
benefit from entry to the United States or access to our 
financialsystem.
    The issues of torture and ``residential surveillance in a 
designated location''--effectively enforced disappearances--will be 
priorities of mine and of this Commission moving forward. I believe 
these are issues where diverse and multi-level coalitions can be built 
to raise issues with the Chinese government.
    I would also like to do more to prioritize the protection of human 
rights lawyers and their families. At the hearing last month I heard 
the phrase ``The War on Law'' used to describe the systematic effort to 
eviscerate the network of human rights lawyers.
    That phrase struck me because, though the number of human rights 
lawyers in China is small, what they stand for was nothing less than 
the rule of law for everyone--particularly those persecuted or 
aggrieved by the Communist Party.
    They stand for the right of everyone in China--religious believers, 
ethnic minority, petitioners, labor activists, or victim of corruption 
or a barbaric population control polices--to have a fair hearing, due 
process, and a justice that is not politicized.
    The Communist Party sees this as a dangerous idea. It means that 
they should be accountable to the people--to hundreds of millions of 
people in fact seeking redress for persecution and Party corruption.
    Xi Jinping is feted in Davos for his commitments to openness and 
the rule of law, but it is rule of law for the few and privileged and 
rule by law for the rest.
    The failure to implement the rule of law, to favor a type of 
lawlessness in the pursuit of keeping the Communist Party in power, has 
serious and lasting implications for U.S.-China relations.
    We must recognize, after the failure of two and half decades of the 
engagement policies, that China's domestic repression drives its 
external aggression, its mercantilist trade policies, and its 
unimaginable decisions to keep propping up a murderous North Korean 
regime.
    I know the Chinese government wants me to focus on positive things. 
I think one positive development here is that the spouses (and 
families) of rights advocates and lawyers have given Beijing a rightly 
deserved headache. They have refused to be silent about their spouse's 
detentions or disappearances and have used the Internet and media to 
get out their message.
    This trend is something new, something different, something we need 
to honor because they are under great pressure to be silent--through 
intimidation, harassment, and detention.
    I want to say to our witness Chongyu that we appreciate your 
testimony here today and the fact that you are speaking out on behalf 
of your father. We want you to know that this Commission is an advocate 
for you, your family, and your father.
    If you or your family face reprisals because of your testimony here 
today, the Congress will take it as a personal affront to the work of 
this body.
    I know your petition has gathered 94,000 signatures, please make 
sure that my name is 94,001.
    The one thing that gives me hope is that the people of China long 
for liberty, justice and opportunity.
    The need for principled and consistent American leadership is more 
important than ever, as China's growing economic power, and persistent 
diplomatic efforts, have succeeded in dampening global criticism of its 
escalating repression and failures to adhere to universal standards.
    The United States must be a beacon of liberty and a champion of 
individual rights and freedoms. The United States must also continue to 
be voice for those silenced, jailed, or repressed in China.
    We cannot . . . will not . . . forget those in China bravely 
seeking liberty and justice and the unalienable rights we all share. 
Like China's human rights lawyers--and like Liu Xiaobo--those who 
bravely seek peaceful change in China.
    It is their stand for liberty, human rights, and the rule of law 
that remain the best hope for a peaceful and prosperous future for the 
United States and China.

                       Submissions for the Record

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

 ``Gagging the Lawyers: China's Crackdown on Human Rights Lawyers and 
                Implications for U.S.-China Relations''


                             JUNE 28, 2017

                          Witness Biographies

    Terence Halliday, Co-Director of the Center on Law and 
Globalization and Research Professor at the American Bar 
Foundation

    Terence Halliday is Co-Director, Center on Law and 
Globalization, and Research Professor, American Bar Foundation; 
Honorary Professor, School of Regulation and Global Governance, 
Australian National University; and Adjunct Professor of 
Sociology, Northwestern University. His most recent books are 
Criminal Justice in China (2016) and Global Lawmakers: How 
International Organizations Shape World Markets (2017). He has 
consulted with the World Bank and China's State Council Office 
on Restructuring the Economic System and has written 
extensively on China's corporate bankruptcy law. He leads a 
research team on domestic and international mobilization for 
basic legal freedoms in China.

    Dr. Teng Biao, Chinese Human Rights Lawyer, Visiting 
Scholar at the Institute for Advanced Study, Co-Founder of the 
Open Constitution Initiative and the China Human Rights 
Accountability Center

    Dr. Teng Biao is a well-known human rights lawyer, a 
visiting scholar at the Institute for Advanced Study, and co-
founder of both the Open Constitution Initiative and China 
Human Rights Accountability Center. Dr. Teng holds a Ph.D. from 
Peking University Law School and has been a visiting scholar at 
Yale Law School. His research interests are in human rights, 
judicial systems, constitutionalism, and social movements. As a 
human rights lawyer, Dr. Teng is a promoter of the Rights 
Defense Movement and a co-initiator of the New Citizens' 
Movement in China. In 2003, he was one of the ``Three Doctors 
of Law'' who submitted a petition to the National People's 
Congress about the unconstitutional detentions of internal 
migrants. Since then, Dr. Teng has provided counsel in numerous 
other human rights cases, including those of Chen Guangcheng, 
rights defender Hu Jia, and many other religious freedom and 
death penalty cases.

    Xia Chongyu, Son of imprisoned human rights lawyer Xia Lin 
and Student at Liberty University

    Xia Chongyu is a student at Liberty University. As of June 
2017, a petition he initiated urging the Chinese government to 
release his father, had generated more than 90,000 signatures. 
His father, Xia Lin, is a human rights lawyer with more than 20 
years' experience working on public interest and politically 
sensitive cases. His clients have included prominent artist Ai 
Weiwei; public interest lawyer Pu Zhiqiang; and Guo Yushan, a 
think tank founder who helped Chen Guangcheng escape to the 
United States Embassy Beijing, among others. The Beijing No. 2 
Intermediate People's Court convicted Xia of ``fraud'' in 
September 2016 and sentenced him to 12 years in prison. The 
sentence was reduced to 10 years on appeal in April 2017.

    Xiaorong Li, Independent scholar and former researcher at 
the Institute for Philosophy and Public Policy at the 
University of Maryland

    Xiaorong Li is an independent scholar and former researcher 
at the Institute for Philosophy and Public Policy at the 
University of Maryland focusing on ethics and theories of human 
rights and democracy, with a regional focus on Asia/China. She 
is the author of the book Ethics, Human Rights, and Culture and 
has written numerous articles on human rights, international 
justice, and women's rights, including on China's horrific 
population control policies. Her writing has been published in 
the Yale Journal of Law & Feminism and NYR Daily, the blog of 
The New York Review of Books. She is also one of the founding 
members of several non-government human rights organizations.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
